               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Standardization of Integrated Mail
   Handling System Loaders at Network
           Distribution Centers

                       Audit Report




                                              February 28, 2012

Report Number NL-AR-12-002
                                                                      February 28, 2012

                                                   Standardization of Integrated Mail
                                                        Handling System Loaders at
                                                       Network Distribution Centers

                                                         Report Number NL-AR-12-002


IMPACT ON:
Network Operations – the Network            WHAT THE OIG RECOMMENDED:
Distribution Center (NDC) Operations        We recommended the vice president,
and Network Operations Engineering          Network Operations, direct NDCs to
groups.                                     modify IMHS loaders to safely accept
                                            OTR containers, while continuing to
WHY THE OIG DID THE AUDIT:                  accept Postal Paks, as designed. We
Our objective was to assess the level of    also recommended the vice president
standardization of selected mail            ensure that NDCs do not use OTR
processing equipment - Integrated Mail      containers in their IMHS loaders until
Handling System (IMHS) loaders within       the loaders are modified to safely
the NDC network.                            accommodate OTR containers.

WHAT THE OIG FOUND:                         WHAT MANAGEMENT SAID:
We determined that some of the IMHS         Management agreed with both
loaders used at the NDCs had not been       recommendations and will issue a work
standardized. Only 247 of the 524 IMHS      order to implement modification of the
loaders had been modified to                local equipment loaders along with the
accommodate both Postal Paks and            necessary changes to other documents
over-the-road (OTR) containers. The         and procedures. In addition, managers
remaining 277 unmodified IMHS loaders       at each of the 10 affected NDC sites
can only safely accommodate Postal          have been directed to refrain from using
Paks. This occurred because U.S.            OTR containers in the IMHS loaders
Postal Service Headquarters had not         until the necessary modifications have
mandated modification of the IMHS           been made.
loaders. Once the IMHS loaders are
modified, the Postal Service would          AUDITORS’ COMMENTS:
attain consistent use of the equipment in   The U.S. Postal Service Office of
the NDC network and be able to              Inspector General considers
improve the flow and redistribution of      management’s comments responsive to
OTR containers. This will also reduce       the recommendations and corrective
cardboard purchases and avoid               actions should resolve the issues
unnecessary transportation of empty         identified in the report.
OTR containers. Finally, since we
determined that some NDCs were using
OTR containers on unmodified IMHS           Link to review the entire report
loaders, modifying them would eliminate
a safety hazard to employees.
February 28, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Standardization of Integrated Mail
                           Handling System Loaders at Network Distribution Centers
                           (Report Number NL-AR-12-002)

This report presents the results of our nationwide audit of the Standardization of
Integrated Mail Handling System Loaders at Network Distribution Centers
(Project Number 10XG052NL001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Susan M. Brownell
    Cynthia F. Mallonee
    Frank Neri
    John M. Dunlop
    Cathy L. Moon
    Susan A. Witt
    Corporate Audit and Response Management
Standardization of Integrated Mail Handling System Loaders                                                         NL-AR-12-002
 at Network Distribution Centers



                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Standardization of IMHS Loaders ................................................................................... 2

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Other Impacts ............................................................................................. 8

Appendix C: IMHS Loaders by NDC ............................................................................... 9

Appendix D: Management’s Comments ........................................................................ 10
Standardization of Integrated Mail Handling System Loaders                                               NL-AR-12-002
 at Network Distribution Centers



Introduction

This report presents the results of our nationwide audit of Integrated Mail Handling
System (IMHS) loaders at network distribution centers (NDCs) (Project Number
10XG052NL001). This self-initiated audit addresses strategic and operational risks. Our
objective was to assess the level of standardization1 of selected mail processing
equipment (MPE) – IMHS loaders within the NDC network.2 See Appendix A for
additional information about this audit.

The IMHS is a heavy mechanical material handling system, which consists of loaders,
unloaders, and conveyers. The U.S. Postal Service has used the IMHS to containerize
mail going to and from the NDC network. This report focuses on standardization of the
IMHS loader,3 which was initially designed to accommodate large cardboard containers,
referred to as Postal Paks,4 but can also be modified to safely accommodate OTR
containers.5 We found that the Postal Service has 524 IMHS loaders in use at 16 of the
21 NDCs.6

Mail transport equipment (MTE) also plays a vital role in holding mail for transportation
and distribution purposes for the Postal Service’s NDC network. MTE are containers of
various types, including containers with wheels of varied sizes, shapes, and materials
(known as ―rolling stock‖), which are primarily used internally to move mail within or
between Postal Service facilities. The Postal Service also uses cardboard containers of
various width and height, including Postal Paks, to supplement its inventory of MTE
rolling stock.




1
  Standardization is the implementation of rules and specifications for common and repeated use, aimed at achieving
an optimum degree of order or uniformity. The U.S. Postal Service Office of Inspector General (OIG) is conducting a
series of audits looking at standardization within all Postal Service functions, including standardization of equipment.
2
  We modified the audit objective in the original announcement letter. Our initial objective was to assess the level of
standardization of selected MPE and MTE in the NDCs network. Due to the limited audit focus on the standardization
of IMHS loaders, the audit objective was restated for that focus.
3
  The IMHS consists of both loaders and unloaders. IMHS loaders directly affect the NDCs’ ability to comply with the
NDC over-the-road (OTR) matrix. Additionally, the Postal Service has initiatives in place to refurbish or modify many
NDC IMHS unloaders. As such, the focus of this audit is the IMHS loader only.
4
  Postal Paks are rigid 69-inch high tri-wall fiberboard boxes used on specific MPE exclusively within the NDC
network, which are funded by Postal Service Headquarters for budgetary purposes.
5
  OTR is a container on wheels, constructed of heavy gauge metal and used for transporting surface mail by truck or
rail between an NDC and its associate Postal Service facilities.
6
  The NDC implementation, which includes additional processing requirements for some NDCs, caused five NDCs to
have a limited need and limited space for IMHS loaders for mail processing to intra-NDCs. These five NDCs
(Chicago, Detroit, Kansas City, Philadelphia, and St. Louis) have incorporated this processing to other machines,
such as the Automated Package Processing System and Automated Container Loaders therefore, requiring no IMHS
loaders.

                                                           1
Standardization of Integrated Mail Handling System Loaders                                            NL-AR-12-002
 at Network Distribution Centers


Conclusion

We determined that 277 IMHS loaders (53 percent) used at the NDCs had not been
standardized to safely accommodate OTR7 containers, which led some facilities to
primarily use Postal Paks. If these loaders were modified for OTR containers, the Postal
Service would attain consistent use of the equipment in the NDC network, be able to
improve the flow and re-distribution of OTR containers, reduce cardboard purchases,
and avoid unnecessary transportation of empty OTR containers. We also determined
that some NDCs were improperly using OTR containers on unmodified IMHS loaders,
causing a potential safety hazard, which may subject the Postal Service to fines
estimated at $30,000. See Appendix B for details on the potential impact of this issue.

Standardization of IMHS Loaders

We found that 247 of the 524 IMHS loaders had been modified to accommodate both
Postal Paks and OTR containers, while the remaining 277 could only safely
accommodate Postal Paks. This limited the Postal Service to primarily using Postal
Paks, rather than OTR containers at many facilities. See Appendix C for a list of IMHS
loaders by NDC.

This occurred because Postal Service Headquarters had not mandated modification of
the IMHS loaders. In our discussions with NDC management, we were advised of
several different ways to modify the IMHS loaders to safely accept OTR containers. The
most common way to do this is to remove the rear bumpers as shown in photograph1 to
the right below.8 This would allow the mail to fit deeper in the loader. Regardless of the
method of conversion, the cost of labor and parts would be less than $100,000 for all
conversions.

                     Photograph 1 – Unmodified and Modified IMHS Loader




              IMHS Loaders before modification (on the left) and after modification (on the right).
                    The picture on the right shows the bumpers in the rear were removed
                       to safely accommodate both Postal Paks and OTR containers.
                                     Cincinnati NDC - August 30, 2011.

7
  While the NDC network uses all types of rolling stock, the OTR container is a type of MTE primarily used in the NDC
network. OTR containers are large aluminum containers on wheels designed for use with automatic container loaders
and unloaders for the safe and mechanized unloading of bulk items.
8
  No NDC reported any negative effects or increased damage to the IMHS loaders as a result of removing the rear
bumpers.


                                                         2
Standardization of Integrated Mail Handling System Loaders                                   NL-AR-12-002
 at Network Distribution Centers



We also determined in interviews with officials at the Los Angeles NDC that the
Occupational Safety and Health Administration (OSHA) levied a penalty of $3,000 in
March 2011 for using OTR containers in an unmodified IMHS loader when there was a
shortage of Postal Paks at the facility. Furthermore, we found the Atlanta, GA, Des
Moines, IA, and Washington, DC NDCs were using OTR containers in unmodified IMHS
loaders, causing a safety hazard.

                          Photograph 2 – Modified IMHS Loader
                       Accepting both Postal Paks and OTR Containers




                         IMHS loaders shown with Postal Paks as designed and
                  modified for an OTR container that fits securely into the loader cradle.
                                   Cincinnati NDC – August 30, 2011.


Officials at these NDCs told us that modifications were not necessary since the loaders
as designed can already accept both the Postal Pak and the OTR container. However,
although both types of MTE can be placed in the loader, mail handlers were not able to
securely and safely position the OTR container in the loader cradle as the OTR
container extended 6 to 8 inches outside the loader’s cradle, creating a safety hazard.
As a result, the OTR container could roll away from the container loader at any time
without notice. Additionally, sensors for the loaders were not adjusted for the height
difference between the Postal Paks and the OTR containers, meaning that overloading
could occur and cause unsafe conditions similar to those experienced at the
Los Angeles NDC.

The Postal Service is required to provide a safe and healthy workplace, free of
recognized hazards and in compliance with OSHA standards. We estimate that if
unmodified IMHS loaders are being used, the Postal Service may be at risk of incurring
OSHA fines of approximately $30,000. See Appendix B for detailed calculations.

In addition to avoiding a safety hazard, there are several benefits to modifying IMHS
loaders, such as:

   Increasing operational flexibility — modification of IMHS loaders would provide
    NDCs with increased flexibility and the option to facilitate use of both OTR
    containers and Postal Paks based on availability of the MTE.




                                                     3
Standardization of Integrated Mail Handling System Loaders                                          NL-AR-12-002
 at Network Distribution Centers


   Facilitating NDC compliance with the headquarters-mandated OTR matrix —
    modification of IMHS loaders to safely accept OTR containers would facilitate NDC
    compliance with the NDC OTR matrix by enabling NDCs to safely use OTR
    containers to transport mail and redistribute the containers using existing
    transportation. This would also help the Postal Service:

    o Reduce the number of OTR containers at surplus NDC sites.
    o Minimize the purchase and use of cardboard and Postal Paks.
    o Avoid additional transportation cost to move empty OTR containers.

Overall, we believe the benefits of standardizing IMHS loaders will provide effective and
enhanced management of MTE and outweigh the cost of modifying IMHS loaders.9

Recommendations

We recommend the vice president, Network Operations:

1. Direct network distribution centers to modify Integrated Mail Handling System
   loaders to safely accept over-the-road containers, while continuing to accept Postal
   Paks, as designed.

2. Ensure that network distribution centers do not use over-the-road (OTR) containers
   in their Integrated Mail Handling System loaders until the loaders are modified to
   safely accommodate OTR containers to avoid potential safety hazards.

Management’s Comments

Management agreed with the two recommendations in the report. Specifically,
management stated that:

   It will develop and issue a work order to implement modification of the local
    equipment loaders, along with the necessary changes to other documents and
    procedures. All modifications are expected to be completed by July 24, 2012.

   Managers at each of the designated NDC sites have been directed to refrain from
    using OTR containers in the IMHS loaders until modifications have been made to
    support the use of the OTR containers. Additionally, the NDC managers at these
    locations have been tasked with communicating to their employees the requirements
    to only use Postal Paks until the loaders have been modified. The communication
    action plan was completed on February 6, 2012. See Appendix D for management’s
    comments in their entirety.




9
 The cost to standardize the remaining IMHS loaders in the NDC network in parts and staff hours would be less than
$100,000 nationally.


                                                        4
Standardization of Integrated Mail Handling System Loaders                   NL-AR-12-002
 at Network Distribution Centers



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
recommendation 2, we agree that the communication with the NDC plant managers and
employees satisfies the intent of this recommendation. Therefore, recommendation 2
may be closed with the issuance of this final report.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                    5
Standardization of Integrated Mail Handling System Loaders                      NL-AR-12-002
 at Network Distribution Centers


                             Appendix A: Additional Information

Background

Conversion of bulk mail centers to the NDC network was initiated to improve the flow of
mail, consolidate package distribution, and improve transportation utilization. In addition,
the conversion resulted in the NDCs assuming more processing activities and using
various types of MPE. The IMHS loader is one of the primary types of MPE that NDCs
use to process parcels and sacks.

One type of MTE used primarily in the NDC network is the OTR container. It is designed
to move bulk business mail and Parcel Post® mail within and among NDCs and other
facilities. To assist with tracking and redistributing OTR containers in the NDC network,
the Postal Service established the NDC OTR matrix as a tool to achieve a balance of
OTR containers within the NDC network. Furthermore, the NDC OTR matrix serves to
identify NDCs with excess OTR containers and facilitate redistribution to those NDCs
experiencing OTR container shortages. The IMHS loaders directly impact the NDCs’
ability to comply with the NDC OTR matrix since not all OTR containers can be used in
the IMHS loaders.

Objective, Scope, and Methodology

Our objective was to assess the level of standardization of selected MPE-IMHS loaders
in the NDC network. To accomplish our objective, we assessed standardization of the
IMHS loaders, a type of MPE, which NDCs use to process intra-NDC mail for dispatch.
For this audit, we focused on IMHS loaders, but excluded IMHS unloaders because
many NDCs have ongoing initiatives to refurbish or modify their unloaders. This review
is a follow-up of our previous audit, Mail Transport Equipment – Needs, Distribution and
Use (see Prior Audits), which addressed the imbalance of MTE rolling stock, particularly
the use and distribution of OTR containers in the NDC network.

We conducted interviews with representatives from headquarters’ Network Operations
including NDC Operations and Network Operations Engineering groups. We visited five
NDCs and held telephone discussions with the remaining 16. We conducted interviews
with the plant, in-plant support and maintenance personnel, and transportation
managers encompassing all 21 NDCs to understand IMHS loaders within the NDC
network. We assessed the number of NDCs that modified the IMHS loaders to safely
accept OTR containers as of December 6, 2011; and national MTE policies and
procedures, NDC planning documents, NDC OTR matrices, and other documents
relating to OTR containers and IMHS loaders.

We conducted this performance audit from June 2011 through February 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our



                                                    6
 Standardization of Integrated Mail Handling System Loaders                            NL-AR-12-002
  at Network Distribution Centers


 audit objective. We believe the evidence obtained provides a reasonable basis for our
 findings and conclusions based on our audit objective. We discussed our observations
 and conclusions with management on January 18, 2012, and included their comments
 where appropriate.

 Prior Audit Coverage

 As reflected in the table below, the OIG has issued two prior audit reports addressing
 the management of OTR containers in the NDC network and standardization of MPE.

 Report Title         Report              Final          Monetary         Report Results
                      Number             Report           Impact
                                          Date
Standardization      NO-AR-12-          10/4/2011             None   The Postal Service has a
of Mail                001                                           sufficient number of
Processing                                                           machines available to
Equipment at                                                         process the mail at
Processing and                                                       processing and distribution
Distribution                                                         centers and has achieved
Centers                                                              considerable
                                                                     standardization of
                                                                     equipment at the facilities
                                                                     reviewed. This report
                                                                     focused on standardization
                                                                     of the Automated Flat
                                                                     Sorting Machine 100 and
                                                                     Delivery Bar Code Sorter
                                                                     machines. Opportunities for
                                                                     further standardization
                                                                     existed at some facilities.
                                                                     Management agreed with
                                                                     the recommendations.
Mail Transport       NL-AR-11-           9/23/11              None   Postal Service
Equipment –             006                                          Headquarters did not
Needs,                                                               perform a comprehensive
Distribution and                                                     MTE rolling stock needs
Use                                                                  analysis or establish
                                                                     effective processes to
                                                                     manage, control, and
                                                                     redistribute existing MTE
                                                                     rolling stock in the NDC
                                                                     network. Management
                                                                     agreed with our findings
                                                                     and recommendations.




                                                     7
Standardization of Integrated Mail Handling System Loaders                                             NL-AR-12-002
 at Network Distribution Centers


                                       Appendix B: Other Impacts


                  Finding                            Impact Category                        Amount
             Standardization of
              IMHS Loaders -                          Assets at Risk10                      $30,00011
              Safety Concerns
             Standardization of
              IMHS Loaders -                 Physical Safety and Security12                     $0
              Safety Concerns

The Postal Service may be at risk of incurring OSHA fines of approximately $30,000, or
$3,000 for each of the 10 NDCs, which have not modified their IMHS loaders to safely
accommodate OTR containers (see Appendix C).




10
   Assets at risk are financial assets that are at risk of loss because of inadequate internal controls and potential
OSHA penalties.
11
   The ‖Assets at Risk‖ calculation was determined based on the $3,000 fine for prior OSHA penalty multiplied by 10,
which is the number of NDCs with loaders yet to be modified nationally that could potentially use OTR containers in
these unmodified IMHS loaders, thereby presenting unsafe conditions.
12
   Physical safety and security cover physical operations assets (such as IMHS loaders) that are unsafe because of
inadequate safety practices and the safety and security of Postal Service employees.




                                                          8
Standardization of Integrated Mail Handling System Loaders                       NL-AR-12-002
 at Network Distribution Centers


                              Appendix C: IMHS Loaders by NDC

                                                 Total
                        NDC                      IMHS        Modified   Unmodified
                                               Loaders        IMHS        IMHS
                                                in Use       Loaders     Loaders

                         NDCs with Fully Modified IMHS Loaders
            Cincinnati, OH                 24         24                    0
            Denver, CO                     20         20                    0
            Jacksonville, FL               22         22                    0
            Memphis, TN                    41         41                    0
            Minneapolis/St. Paul, MN       18         18                    0
            Springfield, MA                24         24                    0
              Sub-Total                   149        149                    0

                      NDCs with Some or No Modified IMHS Loaders
            Atlanta ,GA                    6           0          6
            Dallas, TX                    41           0          41
            Des Moines, IA                51           0          51
            Greensboro, NC                65          22          43
            Los Angeles, CA               36           0          36
            New Jersey                    53          51          2
            Pittsburgh, PA                42          12          30
            San Francisco, CA             28           4          24
            Seattle, WA                   32           9          23
            Washington, DC                21           0          21
                Total                    524         247         277




                                                    9
Standardization of Integrated Mail Handling System Loaders     NL-AR-12-002
 at Network Distribution Centers


                           Appendix D: Management’s Comments




                                                   10
Standardization of Integrated Mail Handling System Loaders   NL-AR-12-002
 at Network Distribution Centers




                                                   11
